July 21, 2014

MEMORANDUM FOR:           JACQUELINE KRAGE STRAKO
                          VICE PRESIDENT, OPERATIONS, GREAT LAKES AREA




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations


SUBJECT:                  Management Alert – Late Payments for Highway Contract
                          Routes – Indianapolis, IN, Processing and Distribution
                          Center (Report Number NO-MA-14-003)

This management alert presents the results of our review of Late Payments for Highway
Contract Routes at the Indianapolis, IN, Processing and Distribution Center (Project
Number 14XG008NO001). This alert responds to concerns Postal Service Network
Operations management brought to our attention about contractors who provide
exceptional services (changes in normally scheduled transportation operations including
extra trips and late leaving trips) and are not being paid timely.

If you have any questions or need additional information, please contact James L.
Ballard, director, Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Late Payments for Highway Contract Routes – Indianapolis, IN,                                        NO-MA-14-003
 Processing and Distribution Center




Introduction

This alert is to bring to your attention the need to immediately reinforce instructions and
provide training on processing payments to highway contract route (HCR) contractors
for exceptional service (extra service and late leaving trips)1 performed at the
Indianapolis, IN, Processing and Distribution Center (P&DC). Exceptional service is
sometimes necessary to move mail due to operational delays or when trailer capacity
on existing transportation is exceeded. According to U.S. Postal Service policies,
administrative officials authorize and document exceptional services and are required to
consolidate records and submit documentation, via Postal Service (PS) Form 5429,2 to
the St. Louis, MO, Accounting Service Center for payment.3 The Postal Service remits
payment to contractors the month after an exceptional service takes place.

Postal Service Network Operations management brought us their concerns about
exceptional service payments. Management stated that contractors were alarmed by
the frequency and amount of payments the Postal Service owed them and were looking
for assistance to resolve these payment issues. We are issuing this alert due to the
urgency and time sensitivity associated with paying outstanding exceptional service
obligations.

Since 2010, the U.S. Postal Service Office of Inspector General (OIG) has been
monitoring a component of exceptional service – extra service surface transportation –
as part of its quarterly Surface Transportation Risk Model.4 Extra service expenses for
HCR transportation have increased significantly nationwide, from $19.3 million in fiscal
year (FY) 2012, Quarter (Q) 2, to about $27.3 million in FY 2014, Q2 (see Figure
1). This upward trend will likely continue due to ongoing changes in the Postal Service’s
processing network.




1
  Exceptional services are changes in normally scheduled transportation operations, including extra trips, late leaving
trips, diversions, and detours.
2
  PS Form 5429 is used to document exceptional service and initiate payment to contractors for exceptional service
as well as provide guidance to local officials on the instructions for performing this function.
3
  Post Office Manual, Section 478.32 F
4
  We developed this model to help identify key indicators that can potentially forewarn Postal Service officials of
problems within a district's surface transportation operations.
                                                             1
Late Payments for Highway Contract Routes - Indianapolis, IN,                                  NO-MA-14-003
Processing and Distribution Center


              Figure 1. Surface Risk Model Results – Extra Service Expenses –
                                 FY 2012, Q2 to FY 2014, Q2




                   Source: OIG risk model results.

Conclusion

We determined the Indianapolis, IN, P&DC did not timely process about $74,000 in
exceptional service payments over the 8-month period from June 2013 through January
2014. We found that payments to HCR contractors were about 3.7 months late, on
average (see Appendix A for our analysis of late exceptional payments).

Postal Service regulations state that proper payment documentation for exceptional
services must be submitted within the month after the service took place. The Postal
Service is obligated to make prompt payments to its contractors by virtue of 31 U.S.C.
3901, 5 Prompt Payment Act of 1974, as amended in 1988. According to Postal Service
policy, "the Postal Service will pay interest on late payments and unearned prompt
payment discounts in accordance with the Prompt Payment Act.”

Late payments occurred because local Postal Service employees responsible for this
function were not adequately trained and plant management was not monitoring their
activity. Further, Great Lakes Area officials did not have visibility over the exceptional
service process and, therefore, were not monitoring this activity. Area officials have
repeatedly expressed concern that they do not have “real time” visibility into this activity,
and this places all responsibility for monitoring and compliance with plant officials.

During our review, we determined that Indianapolis P&DC management eventually
processed all outstanding claims for exceptional service payments, specifically
payments for extra trips and late leaving trips.


5
    Postal Service, Supply Management Supplying Principles and Practices, dated August 2009.


                                                         2
Late Payments for Highway Contract Routes - Indianapolis, IN,           NO-MA-14-003
Processing and Distribution Center


Recommendations

We recommend the vice president, Operations, Great Lakes Area:

1. Ensure management properly trains employees on preparing and timely submitting
   exceptional services documentation.

2. Develop a process to continually monitor locally generated exceptional services
   expenses and ensure local compliance with exceptional services payment
   processes.

Management's Comments

Management agreed with the finding and recommendations. In response to
recommendation 1, Great Lakes Area Network Operations will train all Great Lakes
officials on the exceptional services process. Management will give the training at the
transportation meeting scheduled for August 2014, and provide annual refresher
training.

In response to recommendation 2, Great Lakes Area Network Operations will develop a
certification monitoring process by August 1, 2014, requiring each Great Lakes
administrative official to sign a monthly certification that all extra trip documentation
received within the past 30 days has been processed. The Postal Service will
incorporate this certification process into the annual exceptional services process
refresher training.

Evaluation of Management's Comments

The OIG considers management's comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service's follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                    3
Late Payments for Highway Contract Routes - Indianapolis, IN,                     NO-MA-14-003
Processing and Distribution Center


             Appendix A: Indianapolis P&DC Extra Service Payments and
                            Late Leaving Trip Payments

                                    June 2013 – January 2014

   HCR          DATE OF SERVICE          DATE PAYMENT            TYPE OF          AMOUNT
 NUMBER           PERFORMED               SUBMITTED              SERVICE          POSTAL
                                                                                  SERVICE
                                                                                 SUBMITTED
                                                                                FOR PAYMENT

  478M0            August 2013              March 2014           Late Slips         $3,241.76

  478M0           November 2013             March 2014          Extra Service          $16.26

  478M0           November 2013            January 2014         Extra Service        $162.97

  478M0           November 2013             March 2014           Late Slips         $6,967.98

  478M0           December 2013             March 2014           Extra Trips         $386.10

  478M0            January 2014             March 2014           Late Slips         $4,757.59

  478M0            January 2014             March 2014           Extra Trips        $7,043.85

   478L9             July 2013            December 2013          Extra Trips         $737.79

   478L9             July 2013            December 2013          Late Slips             $9.36

   478L9           August 2013            December 2013          Late Slips            $32.82

   478L9             July 2013           September 2013          Late Slips            $53.67

  475A0              June 2013             January 2014          Extra Trips           $30.44

  475A0              July 2013            December 2013          Extra Trips         $200.45

  475A0            August 2013             January 2014          Extra Trips        $3,080.19

  475A0            August 2013             October 2013          Late Slips            $27.45

  475A0            August 2013             October 2013          Late Slips          $166.08

  475A0          September 2013           December 2013          Late Slips          $440.05

  475A0          September 2013           February 2014         Extra Service      $17,797.27




                                                    4
Late Payments for Highway Contract Routes - Indianapolis, IN,                      NO-MA-14-003
Processing and Distribution Center


   HCR          DATE OF SERVICE          DATE PAYMENT            TYPE OF          AMOUNT
 NUMBER           PERFORMED               SUBMITTED              SERVICE          POSTAL
                                                                                  SERVICE
                                                                                 SUBMITTED
                                                                                FOR PAYMENT
  475A0            October 2013            January 2014         Extra Service       $15,621.39

  475A0           November 2013             March 2014          Extra Service        $1,200.65

  475A0           November 2013            January 2014         Extra Service       $12,188.25

   Total                                                                           $74,162.37




                                                    5
Late Payments for Highway Contract Routes - Indianapolis, IN,   NO-MA-14-003
Processing and Distribution Center




                                                    6
Late Payments for Highway Contract Routes - Indianapolis, IN,   NO-MA-14-003
Processing and Distribution Center




                                                    7
